No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

 

Jose Andres Vera-Gutierrez,
Petitioner,
v. . CERTIFICATE OF SERVICE
UNITED STATES OF AMERICA,

Respondent.

The undersigned hereby certifies that he is counsel for the
Petitioner in the above-captioned matter, and that on November
23, 2020, he served copies of the attached:

Certiorari Petition
Motion to Proceed In Forma Pauperis

on the persons hereinafter named, at the places and addresses
stated below, which are the last known addresses, by handing said
documents to a United States Postal employee located at 811
Lasalle Avenue, Suite 100, Minneapolis, Minnesota 55402, with

first class/priority postage prepaid.

David Genrich

Assistant U.S. Attorney

United States Courthouse, 6 Floor
300 South Fourth Street
Minneapolis, Minnesota 55415

Solicitor General

Room 5614

950 Pennsylvania Avenue NW
United States Department of Justice
Washington, D.C. 20530

     

Dated: November 23, 2020
